HHS/OIG-Audit--"Audit of Medicare Payments to PacifiCare of California
for Beneficiaries Classified as Institutionalized During the Period October 1,
1996 through December 31, 1999, (A-09-00-00104)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Payments to PacifiCare of California for Beneficiaries
Classified as Institutionalized During the Period October 1, 1996 through December
31, 1999," (A-09-00-00104)
March 1, 2001
Complete Text of Report is available in PDF format
(1.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Medicare pays a higher capitation rate for Medicare beneficiaries who are institutionalized.
This final report points out that PacifiCare of California claimed the higher
rate for some beneficiaries who were not institutionalized for the period claimed
resulting in overpayments totaling $14,278. PacifiCare had already submitted
adjustments for $7,719 and, as a result of our audit, submitted additional adjustments
for the remaining $6,559.